Washington, D.C. 20530

May 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Alice Perkins, et vir v. Commissioner of Internal Revenue,
S.Ct. No. 20-1388
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 31, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on May 21, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 21, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1388
PERKINS, ALICE, ET VIR
COMMISSIONER OF INTERNAL REVENUE

GARY D. BOREK
99 VICTORIA BOULEVARD
CHEEKTOWAGA, NY 14225
716-839-4321
JOSEPH J. HEATH
512 JAMESVILLE AVENUE
SYRACUSE, NY 13210
315-447-4851
JJHEATH1946@GMAIL.COM
MARGARET A. MURPHY
LAW OFFICE OF MARGARET A. MURPHY
5354 BRIERCLIFF DRIVE
HAMBURG, NY 14075
7168671536
MAM@MAMURPHYPC.COM

